March 31, 2003

FRANCIA G. SMITH
VICE PRESIDENT AND CONSUMER ADVOCATE

NICHOLAS F. BARRANCA
VICE PRESIDENT, PRODUCT DEVELOPMENT

VINNIE MALLOY
MANAGER, NEW YORK DISTRICT

SUBJECT:      Audit Report – Product Tracking System (Report Number AC-AR-03-005)

This report presents the results of our self-initiated review of the Product Tracking
System (Project Number 01YG002AC000). This review included an evaluation of
Express Mail manual entries of selected locations within the New York District. Our
objectives were to determine whether management controls were adequate to ensure
that system measurements contained within the Product Tracking System are reliable
and to assess the reliability of the scanning data used to reflect the delivery status of
mailpieces.

The process used to measure and report scanning data was adequate. Delivery
information for Express Mail reported in the Product Tracking System was being filtered
through a series of system code filters. In addition, mailpieces were rejected and
excluded from the performance scores, if discrepancies were found. As a result, we
believe the process used to gather performance data for Express Mail was reliable.
However, we noted that an excessive amount of express mailing delivery data for the
New York Metro District was inputted manually and not included in the performance
data reported in the Product Tracking System. This occurred because carriers, clerks,
and drivers used the manual function to avoid scanning and reporting Express Mail
delivery failures. As a result, delivery times for this mail was incorrect. We
recommended the Postal Service train delivery personnel in the use of scanners for
manual entry in tracking and confirming products and issue guidance to supervisors to
investigate falsified delivery times and manual entries that exceed the 5 percent
threshold.

While management neither agreed nor disagreed with our recommendations the actions
taken or planned should correct the issues identified in the report. Management’s
comments and our evaluation of these comments are included in the report.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Larry Chisley,
director, at (813) 261-5218 or me at (703) 248-2300.



B. Wayne Goleski
Assistant Inspector General
 for Core Operations

Attachment

cc: Richard J. Strasser, Jr.
    John A. Rapp
    Ralph J. Moden
    Anita J. Bizzotto
    Jayne E. Schwarz
    Susan M. Duchek
Product Tracking System                                                                         AC-AR-03-005



                                          INTRODUCTION
    Background                   The Product Tracking System incorporates a series of
                                 system measurements using delivery scan data and
                                 produces a management summary report that reflects the
                                 delivery status of Express Mail. The information contained
                                 within the Product Tracking System is obtained through a
                                 handheld mobile data collection device also known as a
                                 “scanner.” The scanner emits an infrared signal that
                                 captures the label information and stores it in the scanner
                                 for downloading into the Integrated Intelligent Management
                                 System. The Integrated Intelligent Management System is
                                 a stand-alone personal computer at each unit. Express Mail
                                 is the Postal Service’s premium service offering next day
                                 delivery by 12 noon or 3 p.m. to most destinations. The
                                 Postal Service on time target performance score for
                                 Express Mail is 94 percent with improvement for Postal
                                 Service quarters three and four. The Postal Service
                                 established a 5 percent threshold for manual and multiple
                                 deliveries on Express and Delivery Confirmation products.

    Objectives, Scope,           Our objectives were to determine whether management
    and Methodology              controls were adequate to ensure system measurements
                                 contained within the Product Tracking System are reliable
                                 and to assess the reliability of the scanning data used to
                                 reflect the delivery status of mailpieces. To accomplish this
                                 we reviewed management reports from the Product
                                 Tracking System via the Web Enterprise Information
                                 System1 for accounting periods 1 through 12, fiscal year
                                 2002.2 To determine how scanners operate, we reviewed
                                 the Handheld Scanner Training Guide and policies and
                                 procedures for Express Mail performance measures and
                                 service standards.

                                 We also used summary data in the Web Enterprise
                                 Information System to identify Postal Service districts with
                                 the highest percentage of manual entries for Express Mail
                                 pieces.3 We conducted on-site visits of selected units in the
                                 New York District to discuss Express Mail handling
                                 procedures. Sites included Church Street Station, Madison
                                 Square Station, Canal Street Station, Grand Central Station,

1
  The Web Enterprise Information System is the Postal Service web based Electronic Information System.
2
  Dates of that period were September 8, 2001, through August 12, 2002.
3
  Summary data from the Web Enterprise Information System was not verified for accuracy and completeness. Our
objective did not include a validation of the Web Enterprise Information System.



                                                       1
                                            Restricted Information
Product Tracking System                                                      AC-AR-03-005



                          Radio City Station, and Times Square Station. During these
                          visits we interviewed New York District staff as well as the
                          unit managers, customer service supervisors, clerks,
                          drivers, and carriers at each location. We monitored the
                          acceptance of Express Mail and reviewed information
                          downloaded from scanners.

                          This audit was conducted from November 2001 through
                          March 2003, in accordance with generally accepted
                          government auditing standards and included such tests of
                          internal controls as were considered necessary under the
                          circumstances. We discussed our conclusions and
                          observations with appropriate management officials and
                          included their comments, where appropriate.

 Prior Audit Coverage     Our report, Delayed Express Mail at a Tampa, Florida
                          Facility (Report Number DE-AR-01-003, dated August 10,
                          2001), found that Express Mail was not always delivered or
                          scanned in a timely manner. Postal Service management
                          attributed these issues to a restriction on the payment of
                          overtime. Postal Service officials stated the restriction was
                          not intended for the Expedited Services Unit and promised
                          to clarify the miscommunication. On a subsequent visit, the
                          restriction had been lifted.




                                             2
                                  Restricted Information
Product Tracking System                                                                           AC-AR-03-005




                                           AUDIT RESULTS
    Product Tracking                The process used to measure and report scanning data
    System                          was adequate. The system included a database that
                                    interfaced with customer call centers, retail terminals, the
                                    Internet, and other field systems. Handheld scanners were
                                    used to extract delivery information that is downloaded to a
                                    local computer that transmits to a Postal Service routed
                                    network. This information is then put through a series of
                                    system code filters4 that identifies various events that would
                                    stop the clock or reject the mailpiece if there is a conflict.
                                    As a result, we believe that delivery information is being
                                    properly processed and reported. Although the process
                                    used to measure and report scanning data was adequate,
                                    we noted that input controls in the New York Metro District
                                    needed strengthening because an excessive amount of
                                    Express Mail delivery data was inputted manually.

                                    We judgmentally selected and visited six sites in the
                                    New York District that exceeded the 5 percent threshold for
                                    inputting information into the scanners manually. During
                                    accounting period 10, the selected sites had manual entry
                                    percentages that ranged from 12 to 48 percent–more than
                                    the 5 percent threshold identified by management to be
                                    monitored.

                                    Interviews of 31 carriers, clerks, and drivers disclosed that
                                    employees feared disciplinary personnel action for late
                                    delivery of Express Mail. These employees also stated that
                                    management would not accept any excuses for the late
                                    delivery of Express Mail and that officials expected all
                                    Express Mail to be delivered on time and in accordance
                                    with the service standard. As a result, these carriers and
                                    drivers used the manual function on their scanner to falsify
                                    delivery times giving the appearance that Express Mail
                                    packages were delivered on time, when in fact they were
                                    delivered after the stated service commitment. We also
                                    noted that the manual option was also used even in
                                    instances where the Express Mail package arrived on time.
                                    Carriers and drivers stated they were concerned with the
                                    time it took to key in each mail recipient’s name after a
                                    delivery. Therefore, they keyed all the names at once using
4
 The Postal Service uses the Quick Basic Program to perform the actual validation batch process. This program has
a summary data file that has 34 exclusionary flags and 57 advisory flags.



                                                        3
                                             Restricted Information
Product Tracking System                                                                             AC-AR-03-005



                                      the manual option to avoid possible delivery failures. The
                                      Handheld Scanner Training User Guide explains that the
                                      manual input should only be used when the scanner was
                                      not working properly or when a scanner is not available for
                                      the clerk or carrier.

                                      Using the manual options to enter the label identification
                                      and numbers will have the same effect as a scan, if the
                                      employees are unable to access the time of delivery field.
                                      However, we found that some carriers, drivers, and clerks
                                      interviewed were not aware of this option, even though they
                                      stated that they had received some training on the use of
                                      the scanners. As a result, the Track and Confirm5
                                      information viewed by customers was inaccurate and
                                      incorrectly reported on time delivery performance for the
                                      six sites visited in the New York District, which could
                                      adversely affect customer satisfaction and lead to loss of
                                      revenue.

                                      Management stated they were unaware that manual
                                      entries for several of their Postal Service retail units were
                                      above the 5 percent threshold and their primary concern
                                      was on-time delivery scores for Express Mail. District
                                      management also stated that the New York District did not
                                      have a “no failure policy” with regard to Express Mail
                                      delivery and they had never instructed personnel to falsify
                                      delivery times. However, district officials stated they
                                      planned to reemphasize that the manual scanning feature
                                      should only be used when appropriate per district policy.

    Recommendation                    We recommend the manager, New York District:

                                           1.     Train delivery personnel in the use of scanners for
                                                  manual entry in tracking and confirming products.

    Management’s                      Management neither agreed nor disagreed with the
    Comments                          recommendation. Management stated service talks were
                                      given to all personnel regarding the inappropriate usage of
                                      manual data entry. Correspondence relative to the topic
                                      from headquarters, the New York Metro Area, and the New
                                      York District was distributed districtwide. Management’s
                                      comments, in their entirety, are included in the appendix of
                                      this report.

5
    Track and Confirm is the database that is accessed from the Postal Service Internet web page.



                                                           4
                                                Restricted Information
Product Tracking System                                                     AC-AR-03-005




 Recommendation              2.     Issue guidance that requires supervisors to
                                    investigate falsified delivery times and manual
                                    entries that exceed the 5 percent threshold.

 Management’s             Management neither agreed nor disagreed with the
 Comments                 recommendation. They stated weekly ranking reports are
                          distributed throughout the district. Area reports are
                          reviewed which enable comparison of performance to other
                          districts in the area.

 Evaluation of            Management’s comments are responsive to
 Management’s             recommendations 1 and 2 and the actions taken or planned
 Comments                 should correct the issues identified in the report.




                                             5
                                  Restricted Information
Product Tracking System                               AC-AR-03-005



                   APPENDIX. MANAGEMENT’S COMMENTS




                                        6
                             Restricted Information
